Office of Inspector General



     Semiannual Report to Congress
          Covering the Period

     October 1, 2013 – March 31, 2014




FEDERAL MARITIME COMMISSION
                                                   TABLE OF CONTENTS

Transmittal Letter


EXECUTIVE SUMMARY .......................................................................................................... 1


FEDERAL MARITIME COMMISSION................................................................................... 2


OFFICE OF INSPECTOR GENERAL...................................................................................... 2


OFFICE OF INSPECTOR GENERAL ACTIVITIES ............................................................. 3


   Completed Audits and Evaluations............................................................................................. 3

   On-going Audits and Evaluations............................................................................................... 5

   Hotline and Investigations .......................................................................................................... 6

   Other Activities........................................................................................................................... 6


SUMMARY OF INSPECTOR GENERAL REPORTING REQUIREMENTS ............................ 9


   TABLE I –           Summary of Audit Reports with Corrective Actions Outstanding for 

                       More than 1 Year ................................................................................................ 10
 
   TABLE II – Listing of Audit Reports Issued........................................................................... 10
 
   TABLE III – Reports with Questioned Costs ........................................................................... 11
 
   TABLE IV – Recommendations that Funds be Put to Better Use ............................................ 12 


Appendix A – Peer Review Activity ........................................................................................... 13 

                                  EXECUTIVE SUMMARY 

       This semiannual report summarizes the activities and accomplishments of the Federal
Maritime Commission (FMC or Commission), Office of Inspector General (OIG) for the
reporting period October 1, 2013 through March 31, 2014. The most significant activities of the
OIG during the first half of fiscal year (FY) 2014 are summarized below. Additional details
pertaining to each activity can be found in subsequent sections of this report.

       During this reporting period, the FMC OIG was led by an Interim Inspector General (IG),
due to the resignation of the last permanent IG in January 2013. After the departure of a
previous Interim IG, the Commission designated Jon Hatfield in August 2013 to serve as Interim
IG while a search for a permanent IG was conducted. Mr. Hatfield is concurrently serving as the
Deputy IG for the Federal Election Commission (FEC) OIG. The Commission concluded the
recruitment process to select a new IG during the latter part of this reporting period and the OIG
expects a permanent IG to be in place early in the next reporting period. In addition to the IG
vacancy, the OIG’s Assistant IG for Audits resigned in December 2013. The OIG is working to
obtain contract audit services to provide audit coverage in the interim until the permanent IG is
hired and is able to staff the office appropriately.

       During this reporting period, the OIG issued the following reports: the Evaluation of the
FMC’s Compliance with the Federal Information Security Management Act FY 2013 (A14-02);
the Independent Auditors’ Report of the FMC’s FY 2013 Financial Statements (A14-01); and the
FY 2013 Financial Statement Management Letter (A14-01A). The OIG also determined that the
Commission is compliant with the Improper Payments Elimination and Recovery Act of 2010.

       In addition to the completed audit and evaluation, the OIG had two audits open as of the
end of this reporting period. These include the OIG’s Audit of Expenditures for Furnishing or
Re-decorating Commissioners’ Offices and the Audit of FMC’s Physical Security – Datawatch.
These audits were on-hold as of the end of the reporting period due to higher priority
assignments. The OIG anticipates continuation of these audit assignments during the next
reporting period.


October 1, 2013 – March 31, 2014                                                           Page 1
       During this reporting period, the OIG received two hotline complaints through its
anonymous webmail; the complaints were forwarded to the appropriate FMC program areas for
disposition. One administrative investigation was in progress and two hotline complaints were
pending at the close of this reporting period. The OIG opened no new investigations and
referred no matters to prosecutorial authorities during this period.

       The FMC OIG completed an audit peer review of the Consumer Product Safety
Commission (CPSC) OIG during this reporting period and issued a pass rating in the final
system review report dated March 14, 2014.

       In addition to these activities, the OIG continued to work with the agency’s Office of the
General Counsel to revise Commission Order 113, which pertains to OIG reporting
responsibilities and protections for whistleblowers with access to classified information.


                        FEDERAL MARITIME COMMISSION 

       The FMC is an independent agency responsible for the regulation of ocean borne
transportation in the foreign commerce of the United States. The principal statutes or statutory
provisions administered by the Commission are: the Shipping Act of 1984, as amended by the
Ocean Shipping Reform Act of 1998; the Foreign Shipping Practices Act of 1988; and Section
19 of the Merchant Marine Act of 1920.

       The FMC is headed by five Commissioners nominated by the President and confirmed by
the Senate, each serving five-year terms. Although the majority of FMC personnel are located in
Washington, D.C., the FMC also maintains a presence in Los Angeles, Seattle, New York, New
Orleans, Houston, and South Florida through area representatives who serve the major ports and
transportation centers within their respective geographic areas. In addition, one at-large area
representative operates from Washington, D.C.


                         OFFICE OF INSPECTOR GENERAL 

       The OIG was established in 1989 by the Inspector General Act of 1978, as amended (5
U.S.C. app.). The OIG is an independent audit and investigative unit headed by an IG who

October 1, 2013 – March 31, 2014                                                             Page 2
reports to the FMC Commissioners. To aid the FMC in accomplishing its mission, the OIG is
provided three full-time positions.

       The OIG is responsible for conducting audits and investigations relating to the programs
and operations of the FMC. Audits are conducted for the purpose of finding and preventing
fraud, waste and abuse, and promoting economy, efficiency and effectiveness within the agency.
The OIG investigations seek out facts related to allegations of wrongdoing on the part of FMC
employees and individuals, or entities contracting with, or obtaining benefits from, the agency.
The Inspector General Act provides that the OIG shall have access to all agency records and may
subpoena records from entities outside of the agency in connection with an audit or investigation.

       The IG is required by law to prepare a report summarizing OIG audits and investigations
during the immediately preceding six-month period. The report is sent to the FMC
Commissioners, the President of the Senate, the Speaker of the House and FMC’s appropriating
and authorizing committees. This dual reporting requirement helps to ensure the independence
of the OIG.


               OFFICE OF INSPECTOR GENERAL ACTIVITIES

Completed Audits and Evaluations 

       Evaluation of FMC’s Compliance with the Federal Information Security Management
Act FY 2013, A14-02. This evaluation report was issued on January 3, 2014. The objectives of
this independent evaluation of the FMC’s information security program were to evaluate its
security posture by assessing compliance with the Federal Information Security Management Act
(FISMA) and related information security policies, procedures, standards, and guidelines. The
scope of our testing focused on the FMC General Support Systems (GSS) and Major
Applications. More specifically, our testing covered a sample of controls as listed in the National
Institute of Standards and Technology (NIST) 800-53, Recommended Security Controls for
Federal Information Systems and Organizations, Revision 4. For example, testing covered
system security plans, access controls, risk assessments, configuration management, contingency
planning, security awareness and auditing. Our scope also included a vulnerability assessment
for the overall network and workstations that connect to the network.


October 1, 2013 – March 31, 2014                                                            Page 3
       During the FY 2013 evaluation, the evaluator noted that FMC has taken steps to improve
the information security program and to remediate some prior year deficiencies. For example, the
FMC has deployed complexity settings on the servers supporting the major applications. The
OIG did not find any new deficiencies in the FY 2013 FISMA evaluation.


       FMC management reported in a letter to the OIG dated March 11, 2014 that additional
corrective action has occurred on outstanding recommendations from the FY 2012 and prior year
FISMA evaluations, and the OIG’s Evaluation of the FMC’s FY 2012 Privacy and Data
Protection. The OIG plans to evaluate these corrective actions during the FY 2014 FISMA
evaluation to verify the weaknesses have been remediated.


       Independent Auditors’ Report of FMC’s FY 2013 Financial Statements, A14-01. This
audit report was issued on December 12, 2013. The audit objectives were to opine on whether
the FMC’s FY 2013 financial statements follow U.S. Generally Accepted Accounting Principles
(GAAP) and present fairly the financial position of the agency. The auditors also reviewed
internal controls over financial reporting and agency compliance with laws and regulations. The
statements audited were the balance sheets as of September 30, 2013 and 2012, and the related
statements of net cost, statements of changes in net position, statements of budgetary resources
and statements of custodial activity.


       The independent auditor opined that the FMC’s financial statements were fairly
presented, in all material respects, in conformity with GAAP; there were no material weaknesses
in internal control over financial reporting (including safeguarding assets) and compliance with
laws and regulations; and no reportable noncompliance with laws and regulations tested.
Therefore, there were no findings or recommendations in the audit report.


       Management Letter for Fiscal Year 2013 Audit of the Federal Maritime Commission
Financial Statements, A14-01A.          The independent auditor, under contract with the OIG,
reviewed FMC’s internal controls over financial reporting and, for FY 2013, did not find any
matters that were considered a material weakness in the systems and processes tested. When


October 1, 2013 – March 31, 2014                                                         Page 4
performing the annual audit of the agency’s financial systems and accounting processes, auditors
may detect deficiencies in internal controls that do not rise to a level of seriousness to be
reported in the annual financial statement audit report.         Instead, these deficiencies are
communicated to the agency in a management letter. As a result of the FY 2013 financial
statement audit, the auditors identified four internal control issues; one of which was resolved
prior to the release of the management letter. FMC management generally concurred with the
weaknesses and agreed to implement corrective action.


       Improper Payments Elimination and Recovery Act of 2010 (IPERA). Each agency
inspector general is required to review improper payment reporting in their agency’s annual
Performance and Accountability Report (PAR) to determine if the agency is in compliance with
IPERA. The purpose of IPERA is to improve the federal government’s efforts to reduce and
recover improper payments. Improper payments are payments that should not have been made
or that were made in an incorrect amount (including overpayments or underpayments); and
includes any payment to an ineligible recipient, any payment for an ineligible good or service not
received, and any payment that does not account for credit for applicable discounts. In a letter to
the Commission dated April 11, 2014, the OIG concluded the FMC is compliant with the IPERA
and applicable guidance.


On-going Audits and Evaluations

       Audit of Expenditures for Furnishing or Re-decorating Commissioners’ Offices. In a
prior reporting period, the OIG decided to initiate this review after the FMC received a request,
on May 9, 2012, from the Committee on Oversight and Government Reform to provide a
complete account for all purchases made for the previous Chairman. The objectives of the audit
were to determine whether the Commission complies with applicable laws and regulations
regarding expenses associated with furnishing, redecorating, or making improvements to
Commissioners’ offices.     Specifically, we performed this review to determine whether the
Commissioners stayed within their $5,000 statutory spending limit and to determine whether
these expenses are recorded and tracked during the term, reappointment or hold over of office for
each Presidential-appointee.


October 1, 2013 – March 31, 2014                                                            Page 5
       Fieldwork has been completed and an exit conference will be scheduled during the next
reporting period to discuss the results of the audit and issue the draft audit report to FMC
management. The final audit report will then be issued after review and comment by FMC
management.

       Audit of FMC’s Physical Security – Datawatch. This audit was incorporated into the
OIG’s 2013 annual audit plan. The objective of the audit is to determine the effectiveness of the
Datawatch security system, assess the cost efficiency of the program and review the internal
controls regarding the security information generated from the system. Due to higher priority
assignments, this assignment was put on-hold during this reporting period. The audit is expected
to be continued during the next reporting period.

 

Hotline and Investigations 

       The Inspector General Act of 1978, as amended, provides that the IG may receive and
investigate complaints or information concerning possible allegations of fraud, waste and abuse
occurring within FMC programs and operations by employees or contractors.            Matters of
possible wrongdoing are referred to the OIG in the form of allegations or complaints from a
variety of sources, including FMC employees, other government agencies and the general public.

       During this reporting period, the OIG received two complaints through its anonymous
webmail; the complaints were forwarded to the appropriate FMC program areas for disposition.
One administrative investigation was in progress and two hotline complaints were pending at the
close of this reporting period. The OIG opened no new investigations and referred no matters to
prosecutorial authorities during this period.

 

Other Activities 

                                           Peer Review

       Federal offices of inspectors general are required by the IG Act to have an audit peer
review performed once every three years. These reviews are to be performed only by federal

October 1, 2013 – March 31, 2014                                                          Page 6
auditors. A committee of the Council of Inspectors General on Integrity and Efficiency (CIGIE)
schedules the review to ensure that resources are available to perform the review and that OIGs
do not conduct reciprocal reviews. The objectives of a peer review are to determine, for the
audit function, whether an effective quality control system has been established in the office and
if policies, procedures and applicable government auditing standards are being followed.

       The FMC OIG completed an audit peer review of the Consumer Product Safety
Commission (CPSC) OIG during this reporting period and issued a pass rating in the final
system review report dated March 14, 2014. There were no deficiencies or recommendations
included in the report.

       The Dodd-Frank Wall Street Reform and Consumer Protection Act of 2010, Public Law
111-203, requires federal offices of inspectors general to include in their semiannual reports to
Congress an appendix containing the results of any peer review conducted by another OIG
during the reporting period, or, if no peer review was conducted within that reporting period, a
statement identifying the date of the last peer review conducted by another OIG. Please see
appendix A for additional information.

                               Memorandum of Understandings

       The FEC OIG signed a Memorandum of Understanding (MOU) with the Commission
under which the FEC’s Deputy Inspector General serves as the Commission’s Interim Inspector
General while the IG position remains open.

                                      Review of Legislation

       As required by the Inspector General Act of 1978, as amended, the OIG routinely reviews
proposed legislation and regulations. The purpose of these reviews is to assess whether the
proposed legislation or regulation:   (1) impacts the economy and efficiency of FMC programs
and operations; and (2) contains adequate internal controls to prevent and detect fraud and abuse.




October 1, 2013 – March 31, 2014                                                           Page 7
                                   Review of FMC Policies

       During this semiannual period, the OIG continued to work with the agency’s Office of
the General Counsel to revise Commission Order (CO) 113, which pertains to OIG reporting
responsibilities and protections for whistleblowers with access to classified information. The
OIG expects the FMC to issue the final CO 113 during the next reporting period.

            Council of Inspectors General on Integrity and Efficiency Activities


       The Council of Inspectors General on Integrity and Efficiency (CIGIE) was established
by law as an independent entity by the Inspector General Reform Act of 2008 (P.L. 110-409) to:

      address integrity, economy and effectiveness issues that transcend individual government
       agencies; and
      increase the professionalism and effectiveness of personnel by developing policies,
       standards, and approaches to aid in the establishment of a well-trained and highly skilled
       workforce in the Office of Inspectors General.

       The CIGIE is comprised of all inspectors general that are Presidentially-appointed /
Senate confirmed and those that are appointed by agency heads -- designated federal entities.
The FMC OIG remains active in CIGIE operations. Specifically, the Interim Inspector General
is a member of CIGIE and participates in the monthly CIGIE meetings. The Counsel to the IG
participates in the Council of Counsels to the Inspector General (“CCIG”) activities. The CCIG
consists of senior counsel from agency OIGs who discuss various legal issues that affect the OIG
community. As Chief Investigator, the OIG Counsel also attends the Assistant Inspector General
for Investigations Committee quarterly meetings, where issues concerning OIG investigative
matters are discussed.




October 1, 2013 – March 31, 2014                                                          Page 8
                           SUMMARY OF INSPECTOR GENERAL

                              REPORTING REQUIREMENTS



        IG Act Reference                   Reporting Requirement                       Pages

       Section 4(a)(2)       Review of legislation and regulations                       7

       Section 5(a)(1)       Significant problems, abuses and deficiencies             None


       Section 5(a)(2)       Recommendations with respect to significant               None
                             problems, abuses, or deficiencies


       Section 5(a)(3)       Prior significant recommendations on which                  10
                             corrective actions have not been completed

       Section 5(a)(4)       Matters referred to prosecutive authorities               None

       Section 5(a)(5)       Summary of instances where information was                None
                             refused

       Section 5(a)(6)       List of audit reports by subject matter                   None

       Section 5(a)(7)       Summary of each particularly significant report           None

       Section 5(a)(8)       Statistical table Reports with questioned costs             11

       Section 5(a)(9)       Statistical table recommendations that funds be put to      12
                             better use

       Section 5(a)(10)      Summary of each audit issued before this reporting        None
                             period for which no management decision was made
                             by the end of the reporting period

       Section 5(a)(11)      Description and explanation of significant revised        None
                             management decisions

       Section 5(a)(12)      Significant management decisions with which the           None
                             inspector general disagrees
                             Information under Section 5(b) of the Federal
       Section 5(a)(13)                                                                None
                             Management Improvement Act (FFMIA) of 1996
       Section 5(a)(14)      Peer Review Activity                                     6, App. A




October 1, 2013 – March 31, 2014                                                                  Page 9
                                               
                       TABLE I – Summary of Audit Reports with 

                   Corrective Actions Outstanding for More than 1 Year 


                                                                   Recommendations

           Report Title            Report          Issue
                                                             Number     Open      Closed
                                   Number          Date
    FY 2012 Implementation          A13-03        12/21/12     2          2          0
    of FISMA
    FY 2012 Privacy and Data        A13-02        12/6/12      5          5          0
    Protection
    FY 2011 Implementation          A12-02        1/17/12      20         9         11
    of FISMA
    Review of FMC’s User           OR10-03        5/27/10      1          1          0
    Fee Calculations
    FY 2009 Implementation          A10-02        1/28/10      19         1         18
    of FISMA




                          TABLE II - Listing of Audit Reports Issued

      Report        Issue     Report Title   Questioned      Unsupported      Funds Put to
      Number        Date                       Costs            Costs          Better Use
      NONE                                      $0               $0                $0              





October 1, 2013 – March 31, 2014                                                         Page 10
                                         TABLE III 


                               Reports with Questioned Costs
 

                                                      Number
                                                        of       Questioned   Unsupported
                                                      Reports      Costs         Costs
A. For which no management decision has been             0          $0            $0
   made by the commencement of the reporting
   period.


B.   Which were issued during the reporting period.      0          $0            $0


                                   Subtotal (A + B)      0          $0            $0


C. For which a management decision was made              0          $0            $0
   during the reporting period.


     (i)   dollar value of disallowed costs; and         0          $0            $0

     (ii) dollar value of costs not disallowed           0          $0            $0

D. For which no management decision has been             0          $0            $0
   made by the end of the reporting period.

E.   Reports for which no management decision            0          $0            $0
     was made within six months of issuance.




October 1, 2013 – March 31, 2014                                                   Page 11
                                      TABLE IV 

                     Recommendations That Funds Be Put To Better Use 


                                                                Number
                                                                  of
                                                                Reports   Dollar Value
      A. For which no management decision has been made
         by the commencement of the reporting period.
                                                                   0          $0

      B.   Which were issued during the reporting period.          0          $0


                                            Subtotal (A + B)       0          $0


      C.   For which a management decision was made during
           the reporting period.
                                                                   0          $0

           (i)   dollar value of recommendations that were         0          $0
                 agreed to by management; and

           (ii) dollar value of recommendations that were not      0          $0
                agreed to by management

      D. For which no management decision has been made
         by the end of the reporting period.                       0          $0

      E.   Reports for which no management decision was
                                                                   0          $0
           made within six months of issuance




October 1, 2013 – March 31, 2014                                                    Page 12
Appendix A


                                    Peer Review Activity


       In accordance with the Dodd-Frank Wall Street Reform and Consumer Protection Act of
2010 (Section 989C of P.L. 111-203), which amended Section 5 of the Inspector General Act of
1978, OIGs are required to include in their semiannual reports (SAR) to Congress the results of
peer reviews of their offices, as well as outstanding and not fully implemented recommendations
from peer reviews the OIG received from another OIG, and outstanding and not fully
implemented recommendations the OIG made in any peer review it performed for another OIG.


       The FMC OIG completed an audit peer review of the Consumer Product Safety
Commission (CPSC) OIG during this reporting period and issued a pass rating in the final
system review report dated March 14, 2014. There were no deficiencies or recommendations
included in the report. Consistent with the requirements of Section 989C of P.L. 111-203, the
FMC OIG is required to include in our semiannual report a list of any outstanding and not fully
implemented recommendations by the CPSC OIG; there are none.


       In accordance with the Council of Inspectors General on Integrity and Efficiency (CIGIE)
Audit Peer Review schedule, the Postal Regulatory Commission (PRC) OIG conducted an audit
peer review of the FMC OIG in a prior reporting period. A final system review report was
issued to the FMC OIG on March 28, 2013; this office received a pass rating. There were no
weaknesses or recommendations identified in the system review report.




October 1, 2013 – March 31, 2014                                                       Page 13
             HOTLINE COMPLAINTS

     The success of the OIG mission to prevent fraud, waste and abuse
      depends on the cooperation of FMC employees and the public.

Employees and the public are encouraged to contact the OIG
regarding any incidents of possible waste, fraud or abuse occurring
within FMC programs and operations.

A COMPLAINT CAN BE REPORTED BY CALLING OUR 24-HR DIRECT LINE:

                             (202) 523-5865
E-MAIL ADDRESS: OIG@FMC.GOV

OR


https://www2.fmc.gov/oigcomplaints/
TO PLACE A COMPLAINT IN WRITING PLEASE MAIL TO:

                  Federal Maritime Commission
                  Office of Inspector General
                  Room 1054
                  800 North Capitol Street, NW
                  Washington, DC 20573
                  To Be Opened By the IG Only

THE INFORMATION YOU PROVIDE IS CONFIDENTIAL AND YOU CAN BE ANONYMOUS.


HOWEVER, CALLERS ARE ENCOURAGED TO ASSIST THE INSPECTOR GENERAL BY
SUPPLYING INFORMATION AS TO HOW THEY MAY BE CONTACTED FOR ADDITIONAL
INFORMATION.
